<html>
<title> - RESTORATION OF THE TRANSATLANTIC DIALOGUE: THE GLOBAL FIGHT AGAINST CLIMATE CHANGE</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]



 
                    RESTORATION OF THE TRANSATLANTIC
           DIALOGUE: THE GLOBAL FIGHT AGAINST CLIMATE CHANGE

=======================================================================

                                HEARING

                               BEFORE THE

       SUBCOMMITTEE ON EUROPE, ENERGY, THE ENVIRONMENT AND CYBER

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             April 20, 2021

                               __________

                           Serial No. 117-38

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     




       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                             ______                       


              U.S. GOVERNMENT PUBLISHING OFFICE 
44-547PDF             WASHINGTON : 2021           
 
 
 
                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                  GREGORY W. MEEKS, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
ALBIO SIRES, New Jersey                  Member
GERALD E. CONNOLLY, Virginia         CHRISTOPHER H. SMITH, New Jersey
THEODORE E. DEUTCH, Florida          STEVE CHABOT, Ohio
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM R. KEATING, Massachusetts    DARRELL ISSA, California
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                ANN WAGNER, Missouri
DINA TITUS, Nevada                   BRIAN MAST, Florida
TED LIEU, California                 BRIAN FITZPATRICK, Pennsylvania
SUSAN WILD, Pennsylvania             KEN BUCK, Colorado
DEAN PHILLIPS, Minnesota             TIM BURCHETT, Tennessee
ILHAN OMAR, Minnesota                MARK GREEN, Tennessee
COLIN ALLRED, Texas                  ANDY BARR, Kentucky
ANDY LEVIN, Michigan                 GREG STEUBE, Florida
ABIGAIL SPANBERGER, Virginia         DAN MEUSER, Pennsylvania
CHRISSY HOULAHAN, Pennsylvania       AUGUST PFLUGER, Texas
TOM MALINOWSKI, New Jersey           PETER MEIJER, Michigan
ANDY KIM, New Jersey                 NICOLE MALLIOTAKIS, New York
SARA JACOBS, California              RONNY JACKSON, Texas
KATHY MANNING, North Carolina        YOUNG KIM, California
JIM COSTA, California                MARIA ELVIRA SALAZAR, Florida
JUAN VARGAS, California              JOE WILSON, South Carolina
VICENTE GONZALEZ, Texas              RON WRIGHT, Texas
BRAD SCHNEIDER, Illinois

                                     
                                     
                                   

                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
                                 ------                                

       Subcommittee on Europe, Energy, the Environment and Cyber

              WILLIAM R. KEATING, Massachusetts, Chairman

SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania, 
ABIGAIL SPANBERGER, Virginia             Ranking Member
ALBIO SIRES, New Jersey              ANN WAGNER, Missouri
THEODORE DEUTCH, Florida             ADAM KINZINGER, Illinois,
DAVID CICILLINE, Rhode Island        BRIAN MAST, Florida
DINA TITUS, Nevada                   DAN MEUSER, Pennsylvania
DEAN PHILLIPS, Minnesota             AUGUST PFLUGER, Texas
JIM COSTA, California                NICOLE MALLIOTAKIS, New York
VICENTE GONZALEZ, Texas              PETER MEIJER, Michigan
BRAD SCHNEIDER, Illinois

 
                      Leah Nodvin, Staff Director
                      
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Espinosa, The Honorable Patricia, Executive Secretary, United 
  Nations Framework Convention on Climate Change.................     9
Timmermans, The Honorable Frans, Executive Vice-President for the 
  European Green Deal, European Commission.......................    15
Kyte, Ms. Rachel, CMG Dean, The Fletcher School, Tufts University    28
Loris, Mr. Nicolas, Deputy Director, Thomas A. Roe Institute for 
  Economic Policy Studies and Herbert and Joyce Morgan Fellow in 
  Energy and Environmental Policy, The Heritage Foundation.......    38

                                APPENDIX

Hearing Notice...................................................    71
Hearing Minutes..................................................    72
Hearing Attendance...............................................    73

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record..................    74


  RESTORATION OF THE TRANSATLANTIC DIALOGUE: THE GLOBAL FIGHT AGAINST 
                             CLIMATE CHANGE

                        Tuesday, April 20, 2021

                          House of Representatives,
  Subcommittee on Europe, Energy, the Environment, 
                                         and Cyber,
                      Committee on Foreign Affairs,
                                                    Washington, DC.

    The subcommittee met, pursuant to notice, at 2:03 p.m., via 
Webex, Hon. William R. Keating (chairman of the subcommittee) 
presiding.
    Mr. Keating. The House Foreign Affairs Subcommittee will 
come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any point, and all members will have 
5 days to submit statements, extraneous materials, and 
questions for the record subject to the length and limitation 
in the rules. To insert something into the record, please have 
your staff email the previously mentioned address or contact 
full committee staff.
    Please keep your video function on at all times, even when 
you are not recognized by the chair. Members are responsible 
for muting and unmuting themselves, and please remember to mute 
yourself after you are finished speaking. Consistent with House 
Res. 965 and the accompanying regulation, staff will only mute 
members and witnesses as appropriate when they are not under 
recognition to eliminate background noise.
    We anticipate that there will be roll calls during this 
hearing. We intend to continue the hearing and ask members to 
come back after voting as quickly as possible, and we will 
reenter you into the queue where it is appropriate for you when 
that is done.
    I see that we do have a quorum present, and I will now 
recognize myself for an opening statement.
    Pursuant to notice, we are holding a hearing today 
entitled, ``Restoration of the Transatlantic Dialogue: The 
Global Fight Against Climate Change.'' I will now recognize 
myself for opening remarks.
    The results of climate change are varied, intertwined, and 
compounding, but together these consequences pose an 
existential threat to our very human community. As a result of 
climate change, already vulnerable communities have been 
subjected to increasing dangers and natural disasters, 
including intensifying droughts, heat waves, and as a result, 
fires. And at the same time, the melting of our polar ice caps 
have contributed to sea level rising, putting communities 
living close to the shorelines at increasing risk. Further, 
deforestation and unsafe city planning, coupled with climate 
change, contributed to the spread of vector-borne diseases.
    And at home, Americans were already economically and 
physically vulnerable and faced especially devastating setbacks 
and difficulties caused by fire, floods, and air pollution. 
These trends are just a snapshot in the landscape of 
consequences caused by climate change.
    All that being said, I cannot underscore the following 
three tenets enough: First, urgency. Climate change is an 
existential global threat, and its negative impacts will only 
increase exponentially if we do not act now.
    Interdependency. Climate change is also a challenge that no 
one nation can fight alone. We can only succeed if the global 
community is united in our efforts to combat its damaging 
consequences.
    Third one is domestically. As one of the top contributors 
of carbon dioxide emissions in the world and as a Nation that 
continues to suffer from the grave impacts of climate change 
that threatens our health, prosperity, and national security, 
the United States must step up and act now.
    For these reasons, I am proud that the Biden Administration 
has made climate change a top priority in both our domestic and 
international efforts that thoughtfully ensure that their 
policies always include a climate lens by installing 
experienced individuals in decisionmaking positions. 
Specifically, I commend the Biden Administration for choosing 
Melanie Nakagawa as the Nation's--as the national security 
director for climate and Secretary John Kerry as the United 
States first Presidential envoy for climate.
    In addition, I am pleased to see the Biden Administration 
is committed to including investments in clean energy 
technologies and jobs.
    [Audio malfunction.]
    The Clerk. To subcommittee staff, did we lose Congressman 
Keating?
    Voice. I am going to go into the other room. I think he 
might have--we might have lost him. I am so sorry, the 
bandwidth is being very----
    Mr. Sires. Yes, I cannot hear him.
    Voice. Okay. Hold on.
    Mr. Fitzpatrick. Leah, I am prepared to go if you need me 
to fill in, otherwise we will wait for him.
    The Clerk. Yes, you can go ahead, Mr. Fitzpatrick.
    Mr. Fitzpatrick. Wait, I think we got him back here.
    Mr. Keating. Am I back?
    Mr. Fitzpatrick. You are back, sir.
    Mr. Keating. Can you hear me?
    Mr. Fitzpatrick. Yep, we can hear you.
    Mr. Keating. Where did you lose me, if you were paying 
attention?
    Mr. Fitzpatrick. Just about 20 seconds ago.
    Mr. Keating. All right.
    Mr. Loris. Clean jobs.
    Mr. Keating. Look, I will just go where I think.
    I was praising the Biden Administration and their work in 
selecting people like Melanie Nakagawa and Secretary Kerry to 
these important positions they have been assigned to. And I am 
pleased that the administration is committed to include 
investments in clean energy, technology, jobs, in their efforts 
to revitalize America's infrastructure.
    These decisions, coupled with the immediate announcement to 
rejoin the Paris climate agreement, have signaled a serious 
dedication to climate action. However, U.S. engagement in 
climate will only succeed if we craft these efforts in concert 
with our transatlantic allies. That is why I am proud to hold 
the hearing with testimony from high-level witnesses, including 
executive vice president for the European Green Deal, Mr. Frans 
Timmermans.
    Cooperation on climate change, particularly through the 
transatlantic partnership, is essential to achieving meaningful 
and long-lasting results. The Transatlantic Alliance is 
critical as a foundation on which our collective security and 
our shared prosperity must be built.
    Together, we have to harness the power of our transatlantic 
dialog to further climate initiatives among communities, and we 
must realize too the Transatlantic Alliances must also harness 
the power of combined efforts and contribute to the global 
fight against climate change as an entity.
    That is why I am proud at this hearing we are also joined 
by Patricia Espinosa, executive secretary to the United Nations 
Framework Convention on Climate Change. With her participation 
in this hearing, she will also serve as a look-ahead that we 
will all be having the opportunity to hear about with the 26 
United Nations Climate Change Conference, commonly known as 
COP26.
    At COP26, world leaders will gather in Glasgow and recommit 
to and buildupon strategies to combat the impacts of climate 
change. Thus, COP26 will be a pivotal moment bringing parties 
together to accelerate action toward the goals of the Paris 
climate agreement.
    Finally, as Members of the U.S. Congress, we must also 
ensure that U.S. engagement on climate change begins here at 
home. For the past several years, we in Congress have done just 
that, and continue the efforts to combat climate change. We 
have hosted in this committee prominent activists, generational 
activists, like Greta Thunberg and other witnesses that were so 
critical.
    We are pleased to be joined from my home State, The 
Fletcher School at Tufts, Dean Rachel Kyte, who has been a 
world leader in organizations as well as a Climate Action Now 
CEO.
    We are working hard to bring the funding back home, support 
local efforts to mitigate the effects of global warming and sea 
level rise, and I am planning on introducing climate-related 
legislation in the coming weeks that will help prevent crises 
and disasters exacerbated by climate change by enhancing the 
United States Government's capacity to prevent, mitigate, and 
respond to such crisis and disasters.
    I know in my own district, that is a coastal district, the 
effects of climate change, and we also sponsor the country's 
largest offshore wind farm that is moving ahead expeditiously.
    In summary, it is our responsibility as Members of Congress 
to take action on climate change, showcase and assist those 
working to advance these mitigation efforts, and to engage our 
global alliances to collaborate on core climate goals. That is 
why myself and my colleagues in Congress are honored to be 
joined today by experts that will highlight key challenges in 
global climate change, and they will be able to identify 
opportunities for cooperation with all our transatlantic 
partners.
    My colleagues, the United States must stand with the 
European Union and the United Nations to achieve impactful 
climate goals that will protect future generations around the 
globe, and I am comforted that we have a Presidential 
administration doing just that.
    President Biden said it himself during his remarks at the 
Munich Security Conference earlier this year: America is back. 
The Transatlantic Alliance is back. And we are not looking 
backward; we are looking forward together.
    With that, I will recognize Ranking Member Mr. Fitzpatrick 
for his opening remarks.
    Mr. Fitzpatrick. Good afternoon, and thank you, Chairman 
Keating. And thank you all, especially our esteemed witnesses, 
as we examine the climate agenda for the United States and its 
effect on our transatlantic partners.
    The United States and our allies across Europe have 
benefited greatly over the years through mutually promoting 
free and open societies and pursuing policies that take the 
economy, the environment, and----
    Mr. Keating. Mr. Fitzpatrick?
    Mr. Fitzpatrick. Yes, sir.
    Mr. Keating. We will take a brief recess and pause the 
committee hearing until we have all our technical issues worked 
out with.
    Mr. Fitzpatrick. Yes, sir.
    [Audio malfunction.]
    Mr. Keating. I move we come back into the committee 
hearing. All those in favor, aye. Opposed, no. The ayes have 
it. The chair recognizes Mr. Fitzpatrick for his opening 
remarks.
    Mr. Fitzpatrick. Thank you again, Chairman Keating.
    Thank you all. Thank you, again, to our panel of witnesses 
in analyzing the climate agenda, not just for us in the United 
States, but our transatlantic partners.
    And, as we all know, the United States, not just the U.S., 
our allies across Europe, we have all benefited over the years 
mutually promoting free and open societies, pursuing policies 
that take our economy, the environment, and national security 
into consideration.
    In the leadup to the 26 Conference of the Parties to the 
United Nations Framework Convention on Climate Change, the 
United States had the opportunity to lead in global effort 
toward multilateral cooperation. And as was stated in President 
Biden's executive order, while tackling the climate crisis at 
home and abroad, climate considerations shall be an essential 
element of the United States foreign policy and national 
security.
    As such, both sides of the Atlantic must realize that an 
emphasis on accountability must be applied to any conversation 
on international environmental policy. President Biden's 
reentry into the Paris Agreement demonstrates the United 
States' willingness to make changes, but the larger 
international community must be willing to make changes as well 
and address those actors doing the most environmental harm.
    For example, significant consideration must be applied to 
the world's largest greenhouse gas emitter, China, that makes 
up nearly a third of the world's CO2 emissions. China has 
previously been accused of underreporting and misrepresenting 
its emission outputs to international organizations, according 
to reporting by The Guardian and The New York Times.
    The Convention should consider how to hold nations 
accountable who have established themselves with a poor 
reputation for reporting energy and environmental data after 
decades of inconsistencies. The United States must also pursue 
a strategy that acknowledges and deters foreign malign 
influences targeting energy markets against our allies.
    For example, Russia has a history of weaponizing their 
energy resources against neighboring States by leveraging 
dependencies to expand its influence and undermine regional 
security. President Biden has cited the Nord Stream 2 pipeline 
as a, quote/unquote, bad deal for Europe during his time as 
Vice President. Secretary Blinken has emphasized that the Biden 
Administration is, quote, determined to do whatever we can to 
prevent, end quote, the completion of this project.
    Following recent escalations of Russian aggression against 
our ally Ukraine, the Biden Administration imposed sanctions 
against Russia that unfortunately were missing considerations 
of Nord Stream 2. It is my hope that the administration takes 
the next logical step in defending our allies and partners by 
fully implementing the bipartisan Nord Stream 2 sanctions as 
required by law.
    Considering that 40 percent of European natural gas imports 
already come from Russia, an operation on Nord Stream 2 
solidifies Europe's reliance on natural gas from Russia and 
undercuts an entire region of allies. The United States must 
remain committed to strong transatlantic partnerships, and in 
pursuing collaborative environmental strategies, we must not 
forget the geopolitical implications of those we are entering 
into agreements with.
    With that, Mr. Chairman, again, I thank the panelists, the 
esteemed panelists we have here and look forward to the 
conversation, and I yield back the balance of my time.
    Mr. Keating. Vice Chair Spanberger----
    Mr. Fitzpatrick. Chairman Keating, I yield back.
    Mr. Keating. All right. Thanks.
    I will now introduce our witnesses, and I want to thank 
them all for being here. Executive Secretary Patricia Espinosa 
is the executive secretary of the United Nations Framework 
Convention on Climate Change. Having served in that position 
since 2016, previously serving as the Minister of Foreign 
Affairs of Mexico, she brings more than 30 years of experience 
at the highest levels in international relations specialized in 
climate change, global governance, sustainable development, 
gender equality, and protection of human rights.
    Executive Vice President Frans Timmermans, a grandfather 
and a Red Sox fan, and he is also leading the European 
Commission's work on the European Green Deal and its first 
European climate law to enshrine the 2050 climate neutrality 
target in EU law. He has previously served as first vice 
president of the EU Commission in charge of better regulation, 
international institution relations, the rule of law, and the 
charter of fundamental rights, and as a Netherlands minister on 
foreign affairs.
    Dean Rachel Kyte is the dean of The Fletcher School at 
Tufts University. Prior to joining Fletcher, Kyte served as the 
special representative of the United Nations Secretary-General 
and chief executive of the Sustainable Energy for All. She 
previously was the World Bank Group vice president and special 
envoy for climate change in the run-up to the Paris Agreement.
    And, finally, Mr. Nicolas Loris is the deputy director of 
the Thomas A. Roe Institute of Economic Policy, Studies, and 
Herbert and Joyce Morgan Fellow in Energy and Environmental 
Policy at the Heritage Foundation.
    I will now recognize the witnesses for 5 minutes each. And 
without objection, your prepared written statement will be made 
part of the record.
    Executive Secretary Espinosa, you are now recognized for 
your opening statement.

    STATEMENT OF THE HONORABLE PATRICIA ESPINOSA, EXECUTIVE 
   SECRETARY, UNITED NATIONS FRAMEWORK CONVENTION ON CLIMATE 
                             CHANGE

    Ms. Espinosa. Thank you, Chairman Keating, and thanks to 
the members of the House Foreign Affairs Subcommittee on 
Europe, Energy, the Environment, and Cyber for this invitation. 
My remarks are accompanied by a written statement that has been 
submitted.
    I was pleased to recently join U.S. Special Presidential 
Envoy for Climate John Kerry and welcome the return of the 
United States to the Paris Agreement. I repeat what I said 
then: We look forward to the resumption of America's leadership 
role in efforts to address global climate change.
    Members, the Paris Agreement is a covenant of hope with the 
people of the world backed by a global plan of action. It 
represents the value and necessity of multilateralism when the 
world needs it most. Through multilateralism, the world has 
dramatically reduced extreme poverty, eradicated major 
diseases, vaccinated against many others, and begun to repair 
the ozone layer.
    The United States, through various administrations, has 
been instrumental in each of these efforts. Multilateralism at 
its core is recognition that international and domestic 
concerns are often intertwined. While COVID-19 is the most 
recent example, nothing exemplifies this dynamic more than our 
existential climate change crisis.
    Climate change recognizes no borders, reflects no political 
parties, and respects no ideologies. It is coming regardless. 
As we increasingly see in the United States and elsewhere, it 
is already here. The science is clear.
    According to data compiled by the National Oceanic and 
Atmospheric Administration's National Centers for Environmental 
Information, the United States has experienced 291 weather and 
climate disasters since 1980. The total cost in this time 
period exceeded $1.9 trillion, a number that continues to grow. 
In 2020 alone, there were $22 billion disasters, the most on 
record.
    What science does not measure misery does. In the last 5 
years, there have been 3,969 climate disaster-related deaths in 
the United States and more than 15,000 between 1980 and 2020. 
This is devastating for so many in the United States and 
throughout the world, especially the most vulnerable. Over the 
long term, climate change is a threat to humanity's very 
existence on this planet.
    Despite this, nations have not yet moved the Paris 
Agreement from adoption to implementation, nor have they 
fulfilled its commitments. The recent NDC Synthesis Report, 
which covers national climate action plan submitted by December 
2020, reveals that we are far away from meeting the goal of the 
Paris Agreement to limit global temperature to 1.5 degrees by 
the end of the century.
    The report shows that at the current rate, nations will 
achieve only less than a 1 percent reduction in emissions by 
2030 compared to 2010 levels, and the IPCC calls for that 
reduction to be 45 percent lower. To say current levels are 
insufficient is actually an understatement. We need stronger, 
more robust national climate action plans in 2021, and we need 
them as soon as possible, including from the United States.
    Members, we recognize that 2021 is a year of tough 
decisions, but making the tough decisions, the right decisions 
could result in a dramatic turning point in human history. 
Tough decisions require leadership, courage, and determination. 
The responsibility for making them are not America's alone, but 
by leading the transformation to what is an unprecedented era 
of growth, prosperity, and hope, America will benefit and 
thrive.
    This transformation can only happen if nations build 
forward from COVID-19 by structuring resilient, sustainable, 
and green post-recovery economies that are aligned with the 
Paris Agreement, and it must carry through to the milestone 
event of COP26 in November. While always important, these 
negotiations are now crucial.
    COP26 represents nothing less than a credibility test for 
our collective efforts to address climate change, implement the 
Paris Agreement, and continue building climate ambition. 
Progress will not be easy. To achieve good outcomes, we need a 
good negotiations process and that depends on trust, 
leadership, and inclusivity.
    We look to nations such as the United States to provide 
both, signal and example. In addition to submitting a strong 
NDC, nothing would signal this leadership more than ensuring 
developed nations fulfill their Paris Agreement pledge to 
mobilize $100 billion annually in funding for developing 
countries to support their action on mitigation and adaptation.
    If the finance commitment is not fulfilled, the credibility 
of the entire process will be undermined. This should not be 
seen as an act of generosity but rather as an investment for 
the benefit of recipient and donors alike.
    Chairman Keating and subcommittee members, for all parties 
at COP26, the message is clear: This is the time to find the 
balances and compromises that can allow us all to strengthen 
our common efforts against the climate emergency and to unleash 
the full potential of the Paris Agreement. We look forward to 
the U.S. being a valuable leader throughout those discussions 
and as we work collaboratively, multilaterally to build a 
clean, green, sustainable, and prosperous future.
    Thank you.
    [The prepared statement of Ms. Espinosa follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     

    
    Mr. Keating. Thank you very much.
    Voice. Mr. Chairman, you are on mute.
    Mr. Keating. I know. I have had some technical problems. 
Thank you, Representative.
    I will now recognize Executive Vice President Timmermans 
for his opening statement. Thank you for joining us.

  STATEMENT OF THE HONORABLE FRANS TIMMERMANS, EXECUTIVE VICE-
   PRESIDENT FOR THE EUROPEAN GREEN DEAL, EUROPEAN COMMISSION

    Mr. Timmermans. It is a great pleasure. It is great to see 
you, Chairman Keating, Ranking Member Fitzpatrick, 
distinguished members of the subcommittee. And I want to start 
by thanking you, Chairman Keating, for mentioning the Red Sox. 
I almost started singing ``Sweet Caroline'' here online, but I 
will not.
    It is really a great honor and a pleasure to offer you a 
written statement and an oral testimony as a Dutchman and a 
European who believes in the enduring strength of our 
transatlantic partnership.
    As we are still in the midst of the fight against COVID-19, 
we are also challenged by other crises, the climate and 
biodiversity crises. Both of them are closely linked and 
mutually reinforce each other, and COVID is also a clear result 
of our failure to rebalance our relationship with our natural 
environment.
    The costs of non-action are increasing by the day. Freak 
storms, erratic weather patterns, floods, wildfires, and the 
astonishing and swift loss of species on which we are reliant 
for the crops that feed us. And, unfortunately, there is a 
strong nexus between these crises and security as we will face 
conflicts over water and arable lands in certain parts of the 
world. And, yes, I am a grandfather, and the risk of our 
grandchildren going to war over water and food is something we 
really need to avoid and avert.
    The European Green Deal is our answer, a modern growth 
strategy encompassing everything from our mobility, our built 
environment, our energy production and consumption, our 
agriculture, our international trade, and our taxonomy. We 
pledged to become climate neutral by 2050, and in December 
2020, European leaders committed to a new 2030 target of at 
least 55 percent emissions reductions compared to 1990.
    In the near term, approximately $800 billion of recovery 
and resilience facility is Europe's medium-term answer to the 
COVID-19 crisis. And the centerpiece of the next generation EU, 
which is our EU recovery fund, 30 percent of the approximately 
$2 trillion of the EU budget for the next 7 years ought to be 
earmarked for climate action. And 100 percent of our budget 
should do no significant harm, should never go in a different 
direction. A comprehensive legislative package will be proposed 
in June to meet this enhanced goal.
    In short, there are 12 proposals in the pipeline to bolster 
existing policies and regulations, strengthen targets, and 
shift incentives toward sustainable practices, in particular 
with regard to our emissions cap and trade system, with regard 
to increasing our natural carbon sinks by protecting and 
restoring our forests--our forests are in really bad shape--to 
our energy production in terms of more renewables and 
differentiated energy taxation and with regard to even higher 
emissions standards for our cars and vans and an extended 
charging infrastructure across the European continent.
    While we green and decarbonize our economy, we also have to 
ensure that we prevent so-called carbon leakage. That is why we 
are drafting a carbon border adjustment mechanism designed to 
address the risk, which, if unchecked, could lead to an 
increase of emissions globally. Ideally and preferably, if 
every country would fulfill its Paris commitments, it would 
never have to be used.
    I have laid out this ``Fit for 55'' package in more detail 
in my written testimony, and I am happy to exchange views with 
you today. This transition will be just, or there just will be 
no transition. This must be our guiding principle. That is why 
distributional issues will play a central role in the design of 
our policies, and I see this is also well understood on the 
other side of the Atlantic.
    We are not telling people to go live in cold caves and 
munch on grass. Ours is a positive proposition, one of cleaner 
air and water, lower energy bills, and food with less 
pesticides, a proposition of a more resilient and inclusive 
economy for all, with local jobs that are not immediately 
outsourced, like the installation of homes and the installation 
of solar panels.
    COP15 on Biodiversity in Kunming, China, this October, and 
COP26 on Climate Change in Glasgow, U.K., this November, will 
tell us whether the world will finally show its determination 
and commitment to do what is necessary. We are more hopeful and 
optimistic of our success now that America is back. The 
appointment of Secretary Kerry as the President's Special 
Climate Envoy is the best sign that the U.S. means business. 
And what John has been doing in the last couple months is 
amazing and really gives us all a lot of hope.
    We are looking forward to working together with the Biden 
Administration as well as with all of you in Congress. Our 
objective is nothing less than the health and well-being of our 
people, of our kids, and our grandkids.
    Thank you very much.
    [The prepared statement of Mr. Timmermans follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

        Mr. Keating. Thank you very much.
    And both to Ms. Espinosa and to you, Mr. Timmermans, I 
spoke with Secretary Kerry just an hour ago and told him of 
this hearing, and he wanted me to personally extend his best 
wishes and his thankfulness for your cooperation.
    Now, it is my pleasure to recognize Dean Kyte for her 
opening statement.

STATEMENT OF RACHEL KYTE CMG, DEAN, THE FLETCHER SCHOOL, TUFTS 
                           UNIVERSITY

    Ms. Kyte. Thank you very much, Mr. Chairman.
    Congressman Keating, to ranking minority member and members 
of the committee, thank you for this opportunity to testify 
today on the restoration of the transatlantic dialog in what is 
a critical year for the world and for climate-related 
diplomacy.
    I have provided a written testimony and would like to make 
two key points in this oral statement. First, that the United 
States and Europe should jointly develop the new norms for the 
deep decarbonization of the economic system through 
manipulation of the financial and economic rules that we have 
lived under for the last few years to make it fit for purpose 
for this decarbonization; second, that the United States and 
Europe should deepen their cooperation to support others to 
make the transformation necessary to achieve zero-net carbon 
and to build more inclusive economies.
    However, as a preamble to both of these two points, we 
should all be clear, and I think we are, that the United States 
and the European Union must lead by example. The United States, 
with the European Union, must work vigorously together to 
ensure that they are driving their own economies toward the 
rapid emissions cuts we need this decade and drive toward zero-
net emissions by 2050.
    The Paris climate goal of limiting global warming to well 
below 2 degrees and striving for 1.5 degrees is unobtainable 
without this joint leadership. So to my first point, that the 
United States and Europe should jointly develop the new norms 
for the financial and economic system as we deeply decarbonize 
the global economy.
    As partners in creating the original rules-based 
international order and to ensure everyone wins in this race to 
net zero, the United States and Europe now need to commit to 
developing new rules for an era of deep decarbonization, 
adaptation, and investment in resilience. They may invite 
others to join them in creating these new norms, building upon 
the desire for cooperation on climate change despite growing 
tensions on issues of technology, security, human rights, or 
trade with other partners.
    Discussions between China and Europe on aligning taxonomies 
and the recent communique between Secretary Kerry and the 
Chinese team on cooperation to address the climate crisis are 
welcome signs that this kind of modus operandi is possible. 
Specifically, the combined economic power of the United States 
and the European Union with newly established norms for 
economic governance, for the financial industry, and for 
carbon-intensive industries will act as a magnet for third 
countries and will spur their increased ambition.
    April 22 this week offers an opportunity for the United 
States and the European Union to signal that they are prepared 
to lead a net-zero carbon club and that they will align 
taxonomists for sustainable finance mechanisms for the 
effective pricing of carbon, work together on carbon border 
adjustment mechanisms, set standards for carbon-intensive 
industries, and standards for new and emerging clean solutions, 
including, for example, those which will be job rich on both 
sides of the Atlantic, including green hydrogen. Intensive work 
between now and the finance summit of the G20 in Venice in July 
could have a catalytic effect.
    The United States and Europe should also indicate that they 
will work to common standards for transparency in the carbon 
content of products and services and jointly problem solve. 
Joint outreach to the WTO can ensure that these norms and 
standards work as incentives and pulls on the international 
system for the benefit of low-and middle-income countries as 
well and not act as barriers to trade finance and technology 
transfer.
    Second, the United States and Europe should deepen their 
cooperation to support others to make the transformation 
necessary. Cooperation between the United States, the European 
Union, and the United Kingdom will be essential to develop the 
finance packages needed to spur mitigation and adaptation and 
resilience.
    This year, financing climate action involves squaring away 
the unmet promises of the pre-Paris climate agreement, 
specifically providing $100 billion a year by 2020. A promise 
made should be a promise kept. But there needs to be creative 
cooperation to provide substantial resources for adaptation and 
resilience and to leverage its scale investment into clean 
infrastructure for developing countries.
    China, through its Belt and Road Initiative, has been a 
partner for many countries in building out energy 
infrastructure in recent years. China is under pressure 
domestically and internationally to green its investments. But 
at the same time, the United States and Europe need to come 
forward with plans and packages of financial system 
instruments, investment, and know-how that provide a 
commensurate or a more comprehensive offer of support for 
countries that need to transition too.
    These are countries that did little to cause the crisis 
that we are all enduring but are suffering perhaps most of all, 
and they are living in an unprecedented era of liquidity and 
debt crisis as a result of COVID-19. This is a critical element 
of leadership from the U.K., the EU, and the U.S. for the G7 
this year.
    To that extent, the U.S. and Europe together should use 
their full voice and vote to insist the international financial 
institutions support transitions in all countries. Recent 
cooperation at the meetings of the IMF showed that this is 
possible, and there is much more to be done.
    In conclusion, all eyes are on the United States this week. 
Can the United States right size its climate ambition in deeds 
as well as words? Can the United States together with Europe 
develop the rules and set the norms for managing climate risk 
in financial and economic systems but also in so doing drive 
opportunity? And can the U.S. and the EU enhance their 
cooperation for their own mutual benefit so that it benefits 
the rest of the world? For all our sakes, I hope that we do.
    [The prepared statement of Ms. Kyte follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     

        
    Mr. Keating. Thank you very much.
    And the chair recognizes Mr. Loris for your opening 
statement.

  STATEMENT OF NICOLAS LORIS, DEPUTY DIRECTOR, THOMAS A. ROE 
  INSTITUTE FOR ECONOMIC POLICY STUDIES AND HERBERT AND JOYCE 
MORGAN FELLOW IN ENERGY AND ENVIRONMENTAL POLICY, THE HERITAGE 
                           FOUNDATION

    Mr. Loris. Well, thank you, Chairman. And I should first 
note that although I grew up in Representative Fitzpatrick's 
district, I am actually a Red Sox fan myself, and I do not know 
if that makes me more enemies or friends in this hearing, but I 
thought I would make note of it. It could not be left unsaid. 
So it is great to see the Sox in first and the Yanks in last 
right now.
    Voice. You are pandering to the chair.
    Mr. Loris. I am. I have to. These opportunities do not come 
that frequently to do so.
    Mr. Keating. So much for cooperation.
    Mr. Loris. Well, Chairman Keating and Ranking Member 
Fitzpatrick and distinguished members of the subcommittee, 
thank you for this opportunity to discuss restoring the 
transatlantic dialog in the fight against global climate 
change.
    My name is Nick Loris, and I am the deputy director and 
Herbert and Joyce Morgan Fellow at the Heritage Foundation. And 
the views I express in this testimony are my own and should not 
be construed as representing any official position of the 
Heritage Foundation.
    A strong transatlantic relationship generates many 
important benefits for Americans and Europeans alike. A healthy 
partnership helps to raise standards of living and address 
common security threats. In the context of climate change and 
the environment, cooperation will drive innovation, reduce 
emissions, and help regions better adapt to a changing climate.
    As President Biden submits America's new nationally 
determined contribution for America's reentry into the Paris 
climate agreement, I would like to make three brief 
observations on where the U.S. policymakers should focus a 
dialog.
    The first is on transparency and accountability, 
particularly with respect to China, the world's largest 
greenhouse gas emitter. China has previously underreported its 
coal use and thus underreported its CO2 emissions. In fact, the 
amount of coal generation China has planned or in development 
is about six times the amount of Germany's entire coal use, and 
last year, their mining output was the highest it has been in 5 
years. Ramping up accountability and at the very least ensuring 
their data is objective and accurate should be a priority for 
any transatlantic discussion on climate.
    A second area of focus for dialog is reducing barriers to 
the deployment of low-carbon and emissions-free technologies. 
The reality is 90 percent of carbon dioxide emissions growth is 
set to come from countries outside the Organization for 
Economic Cooperation and Development. Consequently, to achieve 
any meaningful emissions reductions, policy reforms must 
unleash free enterprise so that it will be in these countries' 
self-interest to pursue such technologies to meet their growing 
energy and economic needs. Reforms should focus on eliminating 
obstacles to investment, providing timely or permitting for new 
cleaner energy projects, and reducing trade restrictions that 
stunt the adoption of more efficient technologies.
    For instance, policymakers in the U.S. and Europe can 
expand market-driven peaceful uses of emissions-free nuclear 
power. Coordination on the domestic and international 
regulations means companies in the U.S. and elsewhere will not 
have to navigate through a complicated patchwork of 
requirements to build new reactors.
    A strong transatlantic partnership on nuclear will also 
help developing countries build out their commercial programs. 
Americans and Europeans can offer technical expertise, and 
government officials can work to ensure that nuclear programs 
are secure, meet nonproliferation objectives, and are not 
subject to the influence of hostile actors.
    A greener economic recovery should also cut red tape to 
expand renewable energy deployment and rely on market forces to 
address supply chain concerns. Wind, solar, and transmission 
developers in the U.S. and Europe have both lamented overly 
complex and unnecessarily lengthy permitting timelines.
    Furthermore, encouraging more environmentally conscious 
extraction and processing of rare earths will diverse supply 
chains of critical minerals. Open markets are the key to ensure 
the pace of innovation, investment, and expansion of rare earth 
supplies will withstand any potential market manipulation 
attempts from China.
    Similarly, the liberalization of energy markets will reduce 
Russia's ability to manipulate natural gas supplies for 
political purposes as they have done in the past. The U.S. and 
European allies stand to receive substantial, long-lasting 
economic, environmental, and geopolitical benefits for more 
energy choice, whether it be nuclear, renewables, but also 
exported liquified natural gas.
    U.S. LNG exports provide a stable, affordable energy source 
for Europeans but also a more climate friendly one compared to 
several alternatives. In fact, a September 2019 study from the 
Department of Energy's National Energy Technology Laboratory 
analyzed the life-cycle greenhouse gas emissions from U.S. LNG 
exports. And in different areas of comparing U.S. LNG ships to 
European and Asia markets when compared to coal use or Russian 
piped gas, the life-cycle emissions from U.S. LNG exports were 
lower.
    A third area of continued and expanded collaboration is on 
research and development. Knowledge sharing, scientific 
inquiry, and entrepreneurial drive are fundamental to solving 
the wide range of environmental challenges we face. A 
collaborative effort that harnesses the value of human 
ingenuity, our State-of-the-art research facilities, top-tier 
universities, and a permissionless innovation culture will help 
identify challenges and cost effectively solve them.
    Ongoing cooperative efforts like ITER for fusion technology 
could help unlock groundbreaking zero-emissions fuel sources. 
Developing pathways to further engage the private sector to 
commercialize these technologies will help bring more 
transformative inventions from the lab to the market.
    In conclusion, a strong transatlantic relationship is 
critical to economic national security and environmental 
progress. Dialogue that bolsters accountability and consumer-
centric policy reforms will best drive an economic recovery and 
response to the COVID-19 pandemic, and, importantly, it will be 
the most effective path to driving down emissions.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Loris follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     

      
    Mr. Keating. Thank you very much.
    We will now go to the question period. Because of the 
scheduling conflicts that we all are going through, I am going 
to first recognize the ranking member for 5 minutes for his 
questions, then go to myself and the vice chair of the 
committee, and then go in the regular pattern back and forth.
    So I recognize the ranking member, Mr. Fitzpatrick, for 5 
minutes.
    Mr. Fitzpatrick. Thank you, Mr. Chairman, for yielding. I 
appreciate it.
    Two questions, both to--directed to Mr. Loris. Mr. Loris, 
welcome. Good to see you. I have one question regarding China 
and the second regarding Nord Stream 2.
    Pertaining to China, just looking to get your perspective 
on why it is so vital that we ensure that there are effective 
accountability mechanisms in place to certify that countries 
like the People's Republic of China are following through on 
their climate commitments.
    Mr. Loris. Yep. With any verification for what China is 
doing or not doing, really a lot of the climate goals will not 
be met. In fact, Secretary Mnuchin a few years ago when he was 
first negotiating the Paris climate agreement and effectively 
said that even if everyone in the developed world, you know, 
biked to work and stopped emitting all greenhouse gas 
emissions, all of the policies, whether they be free market or 
more on the mandate, subsidies, and regulations sides would be 
climatically meaningless because the growth of emissions from 
China is going to continue to develop.
    And even though they have paid some lip service to peaking 
their
    [inaudible] 2030 and trying to achieve net zero by 2060, 
you know, actions speak louder than words. And given the fact 
that they have underreported a lot of their environmental 
problems, not just CO2 related but as it pertains to air and 
water quality and soil degradation from some of their poor 
practices, it is fundamental to hold them accountable.
    Mr. Fitzpatrick. Thank you, Mr. Loris.
    Second, Nord Stream 2. Obviously, China and Nord Stream 2 
are two of, you know, my big priorities on the subcommittee, 
hopefully the subcommittees in whole. Regarding Nord Stream 2, 
why do you believe it is--if you do--believe that it is vital 
for the Biden Administration to fully implement congressionally 
mandated sanctions applicable to the Nord Stream 2 pipeline? 
And, second, do you believe these sanctions could have any 
decarbonization byproducts?
    Mr. Loris. Yes. Thank you for the question. Yes, certainly, 
the amount of opposition to the project, you know, whether it 
be in the United States from, you know, a bipartisan group of 
policymakers, but also overseas there is, you know, recent 
opposition in a Politico op-ed from foreign ministers from the 
Ukraine and Poland, even coalitions within Germany and Austria 
and the Netherlands have opposed the pipeline.
    And my fear is that it continues to allow Russia to 
manipulate energy markets for political gain. And the fact that 
Russia accounted for 45 percent of the EU's natural gas imports 
is a lot, and it will only continue that dependence. And I do 
believe that it prevents opportunities for more emissions-free 
technology to replace those energy needs.
    Again, that could be U.S. LNG exported, as the Department 
of Energy study mentioned, but it also could be expanded 
nuclear or renewables. So I do believe in the sanctions. I do 
believe that the bipartisan opposition to Nord Stream 2 should 
pressure the Biden Administration to use its pull as best as 
possible to prevent the finalization of this project.
    Mr. Fitzpatrick. I appreciate your response, Mr. Loris.
    Mr. Chairman, I yield back, and thank you for 
accommodating.
    Mr. Keating. I would like to thank the ranking member and 
recognize myself for a few questions.
    First, you know, one of the complicating factors and one of 
the consequences, tragic consequences of climate change will be 
the proliferation of airborne diseases and the complications 
that are there. We are seeing living proof of that with the 
COVID-19 pandemic.
    With that in mind and the ambitious plan laid out by the EU 
in this respect, I would like to ask Vice President Timmermans, 
how has the COVID-19 pandemic and its economic effects hindered 
at all your efforts? And if you can manage to get through, you 
know, complications like that, you can do anything, I think, 
but how is it complicating matters?
    Mr. Timmermans. Well, in fact, it has helped us increase a 
sense of urgency that we need to change because, you know, we 
have not mentioned yet that we are also in the middle of an 
industrial revolution, so investments will be necessary. Now 
that we are mobilizing all this public and private finance to 
invest in restoring our economic strength, we better spend that 
on the economy of the future, not of the past.
    And that is the essence of the European Green Deal. It is 
not just about addressing the climate crisis. It is also about 
resetting our economy and putting it on a sustainable footing. 
So paradoxically, the COVID crisis has helped us because it has 
helped Europe overcome some of its inhibitions in terms of 
investments and loans. There is going to be green bonds now. 
There is going to be European-level bonds. This was, for many 
countries like my own, in Germany, anathema for many years, and 
the crisis has brought home the point that we now really need 
to invest.
    But we also know that if we do not invest in the right way, 
this money will be lost and then our children will be burdened 
with a debt they cannot sustain. If we do it in the right way, 
the debt can be sustained. If we do it in the wrong way, we 
just increase our trouble, and that is why the Green Deal is 
seen, by and large, by all European nations as the way out of 
the crisis.
    Mr. Keating. It is interesting, too, the Biden 
Administration's jobs bill. Our infrastructure bill is 
recognizing the same opportunity. We have an infrastructure 
that is aged, and this is an opportunity as an economic 
recovery from COVID to go forward and complement that with our 
green initiatives.
    You know, there is going to be a lot of discussion about 
finger-pointing one country and another country and who is 
doing more. I am reminded last year when we had Greta Thunberg 
here as a witness, she was asked a question about China and, 
you know, their responsibilities and their pollution and how 
she could, you know, comprehend them continuing to do that when 
other nations might do more.
    And it was interesting with her response. She said that she 
would like to offer another perspective. She said, I am from 
Sweden, a small country, and they have the same argument there. 
Why should they as a small country do anything? Just look at 
the U.S., they say. So there is this finger-pointing that goes 
on about where we go. And I do agree with Mr. Loris in terms of 
the private sector having a major role in this, but I also know 
we have to get beyond this as well.
    So I would like to ask, Ms. Espinosa, you know, from the 
U.N.'s perspective, how can we get beyond these kind of finger-
pointing and get us all moving in the same direction? It is an 
issue. You will hear it today in the hearing. What can we do--
other than recognize that we have self-interests abounding in 
this issue, what can we do to help facilitate that cooperation 
rather than just a race to the bottom, pointing fingers at 
people that may not be meeting their requirements?
    Ms. Espinosa. Chairman Keating, thank you. Thank you for 
this question. I think it really addresses the central issue 
about multilateralism, which is to recognize that self-
interest, national interest are so closely interlinked with 
international issues, with global issues. And in this case, the 
pandemic but also the climate emergency are very clear 
examples.
    There is no way--nobody will escape of the climate crisis 
unless we really all together address it. And I think this has 
to do with the way that the world has developed. It is true, 
when the multilateral system was established and when we built 
all those international legal frameworks, the world was 
completely different. And I think there was this sense that we 
in some place of the world could be better off than the others, 
that whatever happened in that other part of the world would 
not affect us.
    Well, that is not the reality now. And I think this has 
to--needs to be fully acknowledged, needs to be translated into 
policies that really take this into account. So leading a 
process of transformation that is global is not in somebody 
else's interest. It is in my own interest. And that really does 
not--there it does not matter whether you are a big country, 
you are a small country.
    Of course, in this case, regarding the climate emergency 
and regarding the contribution to emissions that the different 
countries have, there are diverse levels of responsibility and 
there are different ways to contribute. But the main point to 
overcome, as you say, this finger-pointing, which at the end 
does not allow us to move forward, is to really understand 
this. It is not about the others. It is about us, our own 
national and self-interest.
    Mr. Keating. Yes. It is not about finger-pointing. It is 
about a circular firing squad, given the effects of climate 
change. And also, Ms. Kyte's distinction with emerging 
countries and what she said was important as well.
    I would like to now recognize the vice chair of the 
committee, Representative Spanberger, for her 5 minutes of 
questioning. Then we will go to Mr. Mast in order.
    Ms. Spanberger. Thank you very much, Mr. Chairman.
    I am really appreciative of our witnesses for being here 
today. I thank you for joining the subcommittee hearing. It is 
important to engage in discussions on multinational approaches 
to addressing the climate crisis, which, as has been mentioned, 
represents a significant economic and security threat.
    So I have a couple questions that I would like to begin 
with. In addition to serving on the House Foreign Affairs 
Committee, I serve on the House Agriculture Committee and I 
chair the Subcommittee on Conservation and Forestry. So I have 
been particularly focused in that role on bringing farmers and 
producers to the table and expanding efforts to mitigate and 
adapt to climate change via agriculture through voluntary 
incentive-based programs that ultimately do help improve 
resiliency and profits for our farmers and producers while also 
combatting climate change.
    So my first question I would like to direct to you, 
Executive Vice President Timmermans. I am curious, what lessons 
have the European Commission and EU member countries learned in 
their work in the area of sustainable agriculture? And have any 
particular policies or initiatives been particularly successful 
in improving climate and economic outcomes? And if so, could 
you speak a little bit to those programs?
    Mr. Timmermans. Well, I have to admit that this is one of 
the areas where the challenge might be the biggest, because 
like in the U.S., our farming communities are very often set in 
their ways and fear change because they feel that change would 
lead to less incomes or less future prospects for their kids.
    But since we now come to understand that although 
agriculture is not really responsible for a lot of emissions, 
slightly over 10 percent, it is responsible for an incredible 
amount of loss of biodiversity, and we need to address that. 
And we also need to make sure that there is a benefit in being 
carbon farmers as well.
    So we need--75 percent of our forests are in bad shape in 
Europe, so what we need to do is increase the health of our 
forests. We need to engage with the agricultural community so 
that we diminish very quickly the use of pesticides, the use of 
fertilizers, the use of medication in animal husbandry.
    We have presented a number of plans for that. A 
biodiversity strategy encompasses some of those plans. And then 
we have also launched a plan that we call From Farm to Fork, 
where we address the whole food chain, not just the ones 
producing the food, but also the ones buying the food and 
everyone in between, so that we create more fair pricing for 
the food, that we inform citizens better on what the quality of 
the food is they buy, that we try and create new markets and 
increase the levels of production of bio foods and sustainable 
food.
    This is what we are doing. You know, the problem with our 
common agriculture policy, as I said, was set in its ways, but 
today, 80 percent of the money goes to 20 percent of the farms, 
and that is just not right. Too many of our farming communities 
are struggling and not getting the support they need. We need 
to refocus on supporting especially the people working on the 
farms and not the big land owners and not the agro-industry.
    So that is the change we are proposing. I have to admit, it 
is not going as fast as I would like. There is a lot of 
resistance, as you can understand, and you know that from your 
own country as well, but I think we are moving in the right 
direction, although it could be at a higher speed, if you would 
ask me.
    Ms. Spanberger. Thank you for that. And I am curious, for 
Executive Secretary Espinosa, the UNFCCC has also helped 
facilitate corporations focused on the intersections of 
agriculture and climate change. So I am curious if there is any 
lessons to share from these efforts, if there is any place 
where the international community can really improve 
cooperation on these issues to benefit farmers and producers 
and create real economic opportunity, address food insecurity, 
improve resiliency and sustainability.
    Ms. Espinosa. Thank you. Thank you very much. Well, I have 
to say that in our process, we have been focusing much more in 
the development of the general framework, you know, the general 
guidelines on what countries should be doing. It took us a long 
time until we really got a work program on agriculture, on 
smart agriculture.
    That is the Koronivia framework on agriculture that we have 
just approved 3 years ago. So there, the intention is precisely 
to be able to have a forum where people can exchange views, and 
how here I would like to also underline that for us, what is 
very important is that agriculture is included also in the 
nationally determined contribution, in the national climate 
plans as a whole, as part of that very deep transformation that 
needs to happen.
    But we do understand, and here, of course, we have been 
focusing on the reality in the U.S., the reality in Europe. But 
imagine then when we go to countries like Africa, Asia, Latin 
America, so it is really very, very diverse.
    But I think that the important point is that I would say 
that in our conversation, agriculture and the use of soil has 
become one of the issues where people understand there are a 
lot of opportunities and a lot of challenges.
    In my view, we need to take bold decisions with 
determination, try to help people overcome the fear to change, 
and, of course, yes, ensure that we do a just transition. We 
also recognize that this transition is not going to happen from 
1 day to the next, that it will take some time, but what is 
important is that we put in place and we take the decisions and 
put in place the measures to start it.
    Ms. Spanberger. Thank you very much. Across my district in 
central Virginia, we see a lot of enthusiasm for these 
voluntary programs that really do benefit the farmers, but also 
our climate.
    So thank you very much, Mr. Chairman. I yield back.
    Mr. Keating. Thank you.
    The chair recognizes Representative Mast for 5 minutes. 
Representative Mast?
    Mr. Mast. Thank you, Mr. Chairman. I appreciate the time. 
Thank you to our witnesses for your testimony. I enjoyed 
hearing them and reading them as well.
    Ms. Espinosa, this really goes to a question of protocol 
and getting to the right place for the United States of America 
through the right protocol in order to be a good partner in the 
world of climate.
    Just out of curiosity, do you know right off the bat what 
the UNFCCC's website, do you know how you would describe the 
Paris climate accord? Do you know what the first sentence says 
offhand?
    Ms. Espinosa. I am afraid I cannot tell it to you by heart, 
but if you help me.
    Mr. Mast. I am happy to. It says this--it begins, this is 
the first sentence: The Paris Agreement is a legally binding 
international treaty on climate change.
    Ms. Espinosa. Correct.
    Mr. Mast. And I would just like to have your opinion about 
whether you believe the U.S. Senate should seek to ratify this 
as we do treaties as our Constitution calls for here in the 
United States.
    Ms. Espinosa. Well, first of all, as you may imagine, as a 
U.N. official, it is really not my role to make any opinions on 
internal procedures that pertain to one particular member 
State. What I would like to say is that in this almost 200 
members of the Paris Agreement and of the Convention and 
before, the Kyoto protocol, there are many different procedures 
to become a party to it. And so this is really an area that 
lies within the national authorities in each of those 
countries.
    Mr. Mast. Yes, ma'am. And I can respect your not wanting to 
weigh in to the domestic policies of each and every nation, but 
certainly as your role within the UNFCCC, you would acknowledge 
your procedures should be followed, correct? Not to put words
    [inaudible] Procedures?
    Ms. Espinosa. On our side--I missed you a little bit 
because the communication was a bit cut out, but let me----
    Mr. Mast. It is simply to say, ma'am, it is important that 
we follow our own procedures. You follow your procedures within 
the U.N.; it is important that we follow our procedures within 
the U.S. We can agree on that first? Yes, ma'am? I know we are 
having bad connectivity issues on this particular hearing, but 
you would agree?
    Ms. Espinosa. Yes, I think everyone has to follow the 
procedures that are established.
    Mr. Mast. Thank you, ma'am. That is really--I think there 
is a lot to talk about in this and there has been since it was 
undertaken by President Obama, since it was withdrawn by 
President Trump, and since reentered by President Biden, and it 
is exactly for that reason that I believe it is important for 
us as a Nation to go through our proper channels for something 
so weighty as this particular treaty, again, as specifically 
outlined in video and on the very first sentence of your 
website: The Paris Agreement is a legally binding, 
international treaty on climate change.
    And I appreciate your respect of the fact that we should be 
following our procedures as you should be following yours.
    And in that, I will yield back.
    Mr. Keating. Thank you, Representative.
    The chair recognizes Representative Cicilline for 5 
minutes.
    Mr. Cicilline. Thank you, Chairman Keating and Ranking 
Member Fitzpatrick, for having this really important hearing. 
And thank you to our witnesses for your really important 
testimony.
    I want to just start with Ms. Kyte. You know, it is very 
exciting to have a President and administration that is not 
only serious about taking on this urgent existential threat of 
climate change, but re-engaging with the international 
community in this critical work. And the Biden Administration 
has obviously announced plans and rejoined, of course, 
immediately the Paris climate agreement, but also released 
framework of an infrastructure plan that has a particularly 
green focus to it. And the goal of net-zero emissions by over 
4/2050 is an objective that the administration has adopted.
    And I am wondering whether you have a view as to whether or 
not what is contained in the administration's early description 
of the investments in the American Jobs Plan and the 
infrastructure bill are sufficient to get us to that goal? And 
if not, what additional measures you think we should be 
thinking about in order to achieve net-zero emissions by 2050?
    Ms. Kyte. Well, thank you very much for the question. I 
mean, obviously, how it all adds up to being on the trajectory 
for net-zero emissions is something that I expect that we will 
see much more of in the plans we release later this week. But 
everything is pushing in the right direction, and I think there 
was widespread view that there was extremely--the 
infrastructure plan, the jobs plan are extremely comprehensive.
    And so I think the question is, this is really as the front 
page of Time magazine this week says, you know, climate change 
is everything. So every piece of this system needs to be 
refurbished or reinvented. So this means the--so not only 
developing the cars, the trucks, the buses that will run on 
zero-emissions fuels, but then the infrastructure that needs--
that we need in order for those to be accessible to everybody. 
The deep refurbishments of the built environment that then also 
obviously new building methods, new materials, new tools. The 
energy infrastructure, which you have worked so hard on and 
others, not only building out offshore wind, but then building 
the capacity to develop green hydrogen, green ammonia, then 
using that for shipping and for transportation.
    And so you start to see that this builds. And I think what 
is also clear then is in the work of Secretary Yellen, the work 
of the FCC, and the work of the Federal Reserve linking up to 
international efforts to look at how the financial sector can 
spur this even faster that that is when you start to get 
exponential progress.
    So it is one thing for the United States to pursue its 
plan, it is another thing for European Union and Europe to 
pursue its plans and other parts of the world, but can we find 
a way to really drive this so that we pick up a lot of pace and 
momentum?
    And I think that that is where the setting of the 
standards, agreeing what is green hydrogen so that those funds 
and traders across the Atlantic have an understanding that what 
is considered green in the United States is also considered 
green in Europe. This will allow things to go faster. And so I 
think that that standard setting----
    Mr. Cicilline. I am going to try to get in one more 
question. Sorry. Thank you. I think that is particularly 
helpful.
    Executive Vice President Timmermans, you know, one of the 
issues that I think is particularly important to many of us is 
this importance of achieving equity and inclusion as we think 
about our work in this space. And I am wondering if you can 
speak to kind of what the European Union has done in this 
regard, what we might learn, particularly if you would speak a 
little bit about the transition farm, but also how we can work 
in this Transatlantic Alliance to be sure that we are getting 
this work done, but that we are being very sensitive to those 
other objectives of doing it in an equitable way and in an 
inclusive way, particularly when you think about the impact of 
climate change, you know, particularly hard hit communities, 
communities of color, et cetera.
    Mr. Timmermans. Well, you know, it is give if you combine 
the challenge of climate change with the industrial revolution. 
If you do not steer that, if you do not control that, if you do 
not mitigate that, if you do not organize just transition, you 
will have a small group of extremely successful people and a 
large group of people who will lose out.
    And if people think they will be losing out, they will stop 
the whole process. So if we want this transformational era to 
be successful, it has to be successful for everyone. To do 
that, we have to have special plans, for instance, to 
restructure 30 coal mining regions we still have in the 
European Union.
    So we have to make sure that--because coal has no future 
whatsoever, that when you stop mining coal there, then make 
sure there are alternatives. I am from a coal mining region 
myself. The last coal mine that was closed in my region is half 
a century ago, and still my hometown suffering, half a century 
later, because we made mistakes in the policies to restructure 
these economic monocultures, but we have a huge opportunity 
now.
    Hydrogen was mentioned. There are other industrial 
constructions that could really profit from the infrastructure 
already present in coal mining regions was mentioned. But then 
for people to take these jobs, you need to re-skill them. You 
need to bring new skills. You need to have the right social 
policies so that they do not fall into a poverty trap.
    You have to make sure that there is no energy poverty. You 
have to make sure that they can find affordable housing. These 
are the big things we have to put in place, not just because it 
is just, also because if you do not make it just, it will just 
not happen. Because then people will just stop it from 
happening because they only fear loss and they do not see the 
opportunity.
    That is why what I see as an outsider as a core element of 
what President Biden is doing, he is giving opportunity to 
millions and millions of Americans who didn't see the 
opportunity before.
    Mr. Cicilline. Thank you so much.
    I yield back, Mr. Chairman.
    Mr. Keating. Thank you, Representative.
    The chair recognizes Representative Pfluger for 5 minutes.
    Representative Pfluger.
    Mr. Pfluger. Thank you, Mr. Chairman. And I appreciate the 
panelists.
    You know, when I think about security, national security, 
what comes to mind is energy security. And I think Mr. 
Timmermans just said it correctly, is that we have to make sure 
that there is no energy poverty in this world and it is 
exceedingly important that we take advantage of affordable 
reliable energy. And affordable reliable energy over the past 
decade, 10 years, has raised a billion people out of poverty 
across the globe.
    Many of these have never experienced energy from clean 
burning sources like liquid natural gas before. It is something 
that their quality of life has been raised because of the 
revolution that we have in this country right here.
    And so I would like to ask a couple of questions. It was 
said--you just mentioned that coal has no future, and I would 
have to ask you, Mr. Timmermans, how many plants, how many coal 
plants is China building right now, currently?
    Mr. Timmermans. I know that China is still massively 
investing in coal, but indications are that Chinese policy, 
especially in terms of investment in coal capacity outside of 
China, is changing. That would be a momentous change if Xi 
Jinping could come to the world and say, we are no longer going 
to invest in coal, but now they are massively still investing 
in coal because of the----
    Mr. Pfluger. I am going to reclaim just a little bit of 
time because it was a very pointed question. They are building 
300 coal plants right now. And I would like to ask the question 
to Ms. Kyte or to anyone on the panel, is China joining the 
Paris climate accords?
    Ms. Kyte. So the question of China's coal capacity is 
that----
    Mr. Pfluger. Ms. Kyte, is China going to join the Paris 
climate accords?
    Ms. Kyte. China is a party to the Paris climate accords, 
and in its nationally determined contribution and in its 14th 
5-year plan, it indicates that it wishes to try to reach net-
zero emissions by 2060. And I think that all of the diplomacy 
and the conversation between the EU and China, between the 
United States and China is about when emissions will peak and 
exactly when coal will be exited both overseas and at home.
    I think the question is, there are enormous numbers of coal 
in the pipeline and the IEA report from this morning shows 
that, in fact, emissions have risen and a large part of that is 
coal emissions from China. And so this is absolutely essential. 
I think the real question is the financeability of some of 
these coal----
    Mr. Pfluger. I am going to go ahead and reclaim some of my 
time. I appreciate the----
    Ms. Kyte. Certainly. Certainly, sir.
    Mr. Pfluger. Thank you.
    The most important thing that we as a country can look at 
is, over the last two decades, we have lowered our emissions in 
this country to record levels, something that the Paris climate 
accords could never have actually gotten to without the private 
industries help in more efficient engines and better ways of 
producing energy and affordable, reliable clean energy like LNG 
and other forms.
    As we look at the demand for electricity around the world 
increasing by 50 percent over the next 15 years, I am going to 
ask where is that electricity going to come from? Because in my 
district, we have more wind energy than the entire State of 
California. That is one congressional district. However, it is 
not reliable. It does not do what we need it to do at the times 
that you need it the most when the wind does not blow, and we 
just saw that in the middle of a very severe winter storm.
    Today, I am introducing the LNG Expansion Act, which seeks 
to allow the United States to continue to export liquid natural 
gas around the world to get it to places who need it the most, 
who have not had access to forms of fuel that are affordable 
and reliable.
    The No. 1 question I get from Ambassadors around the world 
that are looking for energy security to overcome energy poverty 
is how can we get more LNG. How can we get more reliable energy 
from the United States? And so I would ask as we look at this, 
where is the electricity going to come from to power our 
electric cars? Is it going to be 100 percent wind?
    And the answer to that is no, it's not. It is going to come 
from affordable reliable energy sources that we have proven 
over time meet demand. It is an all-of-the-above approach. It 
is wind, it is solar, it is LNG, it is fossil fuels. And China, 
the biggest criminal of all on harmful emissions in this world, 
should not be given a free pass while we tie ourselves to some 
unattainable goal that we have already, by the way, met and 
done a world of difference on in meeting those reduced emission 
standards.
    So I would ask everyone on the call to look at what we are 
doing and what we have done as an industry to provide that 
affordable reliable energy and to raise a billion people out of 
poverty.
    With that, Mr. Chairman, I yield back.
    Mr. Keating. Thank you, Representative.
    The chair recognizes Representative Titus for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman.
    I would like to go back to Mr. Timmermans' comments when 
talking about the opportunity that Joe Biden's administration 
and energy plans offer to people. As we begin to reengage with 
the rest of the world on these issues, whether it is the Paris 
Accord or going to Scotland, I just wonder if the last 4 years 
of negligence and insult and rolling back of things has made 
the world skeptical of what the United States is really willing 
to do.
    Is there some background work that we can do to bring them 
over again for when the Biden Administration puts these plans 
forth so they will trust us after the way they have been 
treated and the way we viewed this issue under the Trump 
administration?
    Mr. Timmermans. Well, we have had some rough patches over 
the last 4 years in our transatlantic relations, but there is 
no relationship that is stronger anywhere in the world than the 
transatlantic relationship, and that hasn't fundamentally 
changed over the last 4 years. We had some disagreements, 
sometimes even strong disagreements, but the basics have not 
changed.
    And now with the administration committing to some of the 
things that we hold dear and also such a clear commitment also 
to NATO and the Transatlantic Alliance, everybody is happy in 
Europe. Everybody welcomes this in Europe. So there is no hard 
feelings.
    And, by the way, on the climate issue, even though at the 
Federal level the United States was sort of rogue or absent in 
the last 4 years, on the State level, especially private 
business, so much was happening that the U.S. didn't really 
lose pace internally and that, of course, helps to create a 
positive momentum also internationally, because in this area, 
in this field, the only credibility you have is based on what 
you are doing at home.
    Whatever nice speeches you do abroad, whatever nice 
commitments you enter into, you will be held accountable for 
what you are doing at home. And in that sense, you know, 
because of what States have been doing, cities have been doing, 
or what the private sector has been doing, includingthe energy 
sector, the United States has not really lost a lot of distance 
vis--vis other parts of the world.
    Ms. Titus. Well, that is reassuring. I am glad some people 
in the States were able to make up for the lack of leadership 
at the Federal level. So moving forward, things should be 
working nicely under this new administration. So thank you for 
saying that.
    I would like to ask Secretary Espinosa a question. In your 
testimony, you talk about the number of climate disaster 
related deaths. You say that there were 4,000 in the last 5 
years, and that is over a thousand more than in the entire 
1980's. I suspect if you included famine and disasters beyond 
just immediate kinds of experiences or incidences, that number 
would even be higher. And it seems that the most vulnerable are 
the ones who are suffering the most, like intense storms, for 
example.
    I wonder if you would talk about how the U.S. and the EU 
can assist those who are the most vulnerable, and if climate 
change's impact on human rights, is it a basic issue that we 
should be concerned about? What can we do to hold those 
accountable who aren't recognizing that fact?
    Ms. Espinosa. First of all, regarding how countries, those 
more vulnerable can be helped, I think the point about 
investing and financing of adaptation and resilience building 
is very critical. And this is--because this is also the area 
where we see lack of financial flows precisely for those 
countries that are more vulnerable.
    We have within the Green Climate Fund, for example, we have 
established a goal of 50 percent adaptation finance. That is 
not being fulfilled right now. Just a few days ago or maybe a 
couple of weeks ago, Secretary-General Guterres was saying that 
of all climate finance, only 20 percent is going to adaptation.
    So I think this is a very, very important area that needs 
to be addressed, and I think these should be addressed also in 
the framework of what Rachel Kyte was saying about the need to 
really look at the whole international financial infrastructure 
to align it to these sustainability goals that we have and net-
zero low emissions economy.
    Regarding human rights, we have--within our process, we 
have, for the time being, focused much more on women. Women are 
particularly vulnerable to the effects of climate change. As we 
know, women are in so many places the providers of food, the 
providers of water for the family. So if there is a drought 
that means women really enduring long, long distances to get 
water, to try to produce some food.
    And also in terms of health. Health-related issues that are 
also closely related to climate change.
    So, yes, one of the things that we are now trying to do is 
encouraging countries to include these issues within their 
national climate plans and policies, so that they are really 
imbedded. Not like a side issue that is addressed somehow, but 
really as part of the overall plan. I think this is a way to do 
it and there, of course, many countries have very little 
capacity to put those national climate plans in place.
    And then we have, of course, the challenge of financing the 
implementation of those national climate plans.
    Ms. Titus. Thank you very much.
    Thank you, Mr. Chairman. That is helpful.
    Mr. Keating. Thank you, Representative.
    The chair now recognizes Representative Meijer for 5 
minutes.
    Mr. Meijer. Thank you, Mr. Chairman. And thank you to our 
experts today for joining us.
    I want to go back to some remarks that the ranking member 
made, and specifically he had some questions that were 
addressed to Mr. Loris around Nord Stream 2, around the 
diversification of the European Union's energy sources and 
concerns about Russia. I want to touch on that, but I will be 
directing my questions toward Mr. Timmermans.
    But I am mindful of the fact that the United States has 
seen double-digit declines over the past two decades in our 
carbon emissions largely driven by a coal-to-gas switch in our 
energy generation. I know in some corners it is popular to 
attack fracking, despite the fact that natural gas has been 
very beneficial in being a strong transition energy source for 
the U.S. and potentially a long-term on-demand baseload 
generating source that is lower emissions than some of its 
alternatives such as coal.
    But I am also mindful that as we look to Nord Stream 2 
coming online and the significant increase that it would 
represent in EU natural gas imports, I think it is already 
Russia accounting for over 40 percent, and that figure will 
undoubtedly go much higher. At a time when Alexei Navalny is 
dying in, essentially a Gulag in Siberia, where--and Czechia 
just earlier this week, Russian intelligence agents were held 
responsible for a 2014 destruction of an ammunition depot that 
killed two citizens, where their maligned activities throughout 
the European Union, including poisoning and killing with 
chemical weapons, not only dissidents, but also European Union 
citizens, at a time when we are seeing that level of aggression 
where Russian troops are massing on Ukraine's border, despite 
their increasing destabilization of the Donbas and their 
refusal to acknowledge or heed international calls around the 
annexation of Crimea, you know, at this point in that tension, 
we have been talking a lot about diversification of energy 
production and sources.
    And I am a strong proponent of renewable energy. I wish 
there was a greater acknowledgement of nuclear's productive 
capabilities and how it can feed into a low carbon or no 
carbon, all-of-the-above energy strategy, but I want to focus 
this question with Mr. Timmermans.
    How do you mitigate the concerns of not the diversification 
of production type, but that strong concentration of origin of 
that natural gas from Russia and what that may do to just give 
Vladimir Putin a tremendous leverage over the European Union?
    Mr. Timmermans. Well, first of all, specifically on Nord 
Stream 2, the European Commission has this position that we do 
not need Nord Stream 2 for our energy security in the European 
Union. So let me be very clear on that. It was a commercial 
decision. It was a political decision made in Germany, but as 
far as we are concerned, it was not a necessary addition for 
our energy.
    Second, we have been diversifying our energy resourcing 
tremendously and massively investing in renewable energy. So we 
will be using in certain member States where coal is still 
predominant and wood is burnt for heating, we will be using 
natural gas as a transitional energy carrier, but that will 
disappear in the future.
    Green hydrogen will play an incredibly important role. 
Generated offshore wind is taking off at a rate that is 
incredible. It is becoming cheaper and cheaper, and it really 
is an investment opportunity. We do not need any subsidies for 
that anymore. Solar is going in the same direction.
    Having said all that, our relationship with Russia is 
extremely complicated, and Russia--I served in Russia for quite 
some years. I speak Russian. I was trained to understand the 
country as a soldier, and I was foreign minister of my country 
when MA.17 was shot down. So I have some experience with 
dealing with that very complicated country, and I have no 
illusions about it. No illusions whatsoever.
    But if you look at the interest of the Transatlantic 
Alliance, unstable Russia is a bigger threat to us than a 
slightly more stable Russia. And for the foreseeable future, 
they will depend on their energy exports. They will depend on 
us more than we will depend on them. So I would like to invite 
you to think about this relationship as it develops that I 
think the dependency of the Russians on us will increase 
because they will need to sell us their gas because they do not 
want to depend on China. That is the last thing they want. And 
then at the same time, we will be decarbonizing our energy 
resourcing.
    So, yes, I see the problem you are addressing today. I also 
see the vulnerabilities because of different opinions within 
the European Union about our relationship with Russia. Some are 
very, very cozy with the Russians in the European Union, I have 
to admit that, but I also see that in the longer term, the 
bigger problem will be in Russia because their economy, which 
is completely based on the extraction of natural resources and 
selling that abroad, will have to undergo a fundamental 
transformation if they want to address the challenges that we 
are facing also in the industrial revolution and with the 
climate crisis.
    Mr. Meijer. [Speaking foreign language.] Timmermans.
    And with that, Mr. Chairman, I yield back.
    Mr. Timmermans. I saw your name and I know we share a 
legacy.
    Mr. Meijer. Thank you.
    Mr. Keating. Thank you, Representative.
    The chair now recognizes Representative Costa for 5 
minutes.
    I think you are on mute, Representative. See if you are on 
audio now.
    Mr. Costa. How about now?
    Mr. Keating. Okay. Yes. Representative Costa.
    Mr. Costa. We are down to 15 percent, so it wouldn't let me 
unmute. I will be quick.
    Anyway, thank you, Mr. Chairman, for this important 
hearing, and for our panel.
    I want to followup on some of the questions that have been 
touched upon. But when we talk about the similarities and the 
challenges facing the European Union and the United States in 
seeking production of greenhouse gas emissions, what do you 
think are some of the key differences, since both of you have a 
perspective of both the U.S. and the EU, in your view, and what 
do you think is the greatest opportunity for a more robust 
cooperation between the EU and the United States?
    Mr. Timmermans. Are you asking me that question, because I 
didn't--I suppose you are asking me the question?
    Mr. Costa. Certainly.
    Mr. Timmermans. What I would see as the biggest similarity, 
actually, is the values we share. Because the way our people 
want to live is so much more comparable if we look at a 
transatlantic relationship than with any other part of the 
world, I would argue. Dissimilarities are, of course, that the 
United States is an energy producing and exporting country, 
fossil fuel energy producing and exporting country, which comes 
with other challenges than a continent like Europe, where we 
are mainly importers of energy, especially when coal is 
disappearing, we are becoming increasingly importers of energy. 
That is a different starting position, but that does not mean 
we cannot create synergies from these different starting 
positions. I think some of the choices we will be making in the 
future are absolutely comparable.
    If I see what is happening on green hydrogen in the U.S., 
if I see what is happening on offshore wind in the U.S., if I 
see what is happening on creating a circle economy in the U.S., 
the developmentsacross the Atlantic are very much comparable 
and we could really create synergies that would be compelling 
on other parts of the world to go into the same direction. That 
is why it is so important that the Federal Government is on the 
same page with us now.
    Mr. Costa. And I agree. And you did mention, but it is 
obvious that we both subscribe to a rules-based economy which 
allows you to use incentives in ways that could promote good 
best management practices.
    In addition to that, the EU and the United States still 
comprise about half the world's economy, which allows us to, I 
think, set the rules.
    I also want to followup on my colleague Congresswoman 
Spanberger's comment about we both serve on the Ag Committee, 
and I chair the Transatlantic Legislators' Dialogue. But you 
noted the farm to fork policy in reducing greenhouse gases and 
agricultural practices in the United States.
    We have done a great deal--I am from California--in terms 
of the last 10 years, but in all things ag related between the 
EU and the United States, there seems to be a disconnect, and I 
think it is politics primarily, and you note it in terms of 
your own comments about the fear. Fear of change. I am a third-
generation farmer. I understand the fear of change. I do not 
farm the same way my parents farmed for a lot of reasons.
    But I always thought if you could get the policy committees 
within the EU parliament together with our policy committees 
here in the Congress, maybe we might get past the politics that 
we all reflect and represent in terms of meaningful ways to 
overcome them as it relates to this farm to fork policy. I 
would like your thoughts.
    Mr. Timmermans. Well, I think, you know, if you go back to 
basics, we will have to feed about 10 billion people in the 
future, and we will have to feed them within planetary 
boundaries with limited resources, with a huge threat to our 
bio-diversity, with a lack of water in many places. We have to 
rethink the way we produce our food on a global scale, and I do 
not see why we could not do this together with the United 
States.
    Our subsidy system is different, and because it is 
different, it has caused conflicts between us. But if you look 
beyond the subsidy system and what is essential for the future 
of agriculture, we should have a meeting of minds.
    Mr. Costa. And food is a national security issue, whether 
it be in Europe or whether it be in the United States. And the 
planet had a billion-seven 200 years ago. We have over 7 
billion people today. By the middle of the century, we are 
going to have 9 billion, close to the 10 you noted. And so 
sustainability is, I think, the central focus of this effort in 
light of climate change. And we have water problems in 
California all the time and it is only going to make the 
challenge more severe.
    My timehas run out, but this is something I would like to 
continue to have a conversation with you as we work with our 
European allies and the parliament.
    Mr. Timmermans. Great.
    Mr. Keating. Thank you, Representative. And it certainly is 
something worthy of dialog in the Transatlantic Legislators' 
Dialogue that you chair. So thank you for your work there. And 
thank you, Representative.
    Now, I recognize Representative Tenney for 5 minutes.
    Ms. Tenney. Thank you, Chairman Keating. And I want to say 
thank you also to Ranking Member Brian Fitzpatrick for 
convening this hearing, and for our witnesses andthe 
comprehensive testimoneys that we are hearing today. And I 
think it is an important issue and we need to continue to work 
with our transatlantic partners on the resilience and the 
impacts of climate.
    In doing so, I think that we also have to have a realistic 
approach backed by results and show that, you know, open and 
free markets can well lead to innovation and increase 
prosperity, lesser emissions, and also more security for our 
energy sources. And I think--and I look back just in my own 
district as we look to tackling some of the climate issues, we 
have to ensure that we have a level playing field that benefits 
and protects U.S. interests and also my district in New York 
State.
    I want to ask my first question to Mr. Loris, and I just 
really need to--I would love to just get your view on--the 
Chinese Communist Party dominates a significant portion of our 
critical mineral supply chain. What are the implications for 
renewable energy technologies if access to these critical 
minerals becomes limited? And what steps maybe would you 
suggest that we need to take to ensure that the United States 
actually retains access to those critical minerals, 
domestically and aboard and, even in some cases, some of the 
rare earth metals that are processed--found in the United 
States, processed in China, and brought back here?
    Mr. Loris. Well, thank you for the question. It is 
certainly an important one. And the diversification of those 
markets is vitally important for the future of renewables, the 
future of battery technologies, and consequently electric 
vehicles.
    You know, we saw China attempt to manipulate markets 
against the Japanese in 2010, and when prices rise, markets 
diversified. And that is what happens when you have price 
signals, you are going to have a response from the private 
sector.
    We need to make sure that we have the right environmental 
reviews and permanent processes in place so when the market 
does want to diversify, whether that is through the extraction 
and processing of rare earth minerals, that they can build 
these plants in a timely manner. And, fortunately, we are 
seeing some of that investment already in the United States, 
and that is great.
    And so I think it is important for two critical reasons. 
One is so that China cannot attempt to manipulate markets as 
they have done in the past, but, two, thinking through the 
climate benefits of these technologies, we really need to have 
a full understanding of what the life-cycle emissions looks 
like. So it is important to think about where the mining and 
extraction of some of these minerals come from now, like the 
Democratic Republic of Congo. So when we are thinking through 
what are the emissions benefits of these technologies, the full 
process matters and the full life cycle of greenhouse gas 
emissions matters, and the more that we can have those 
processes from a mining standpoint, but also from a processing 
standpoint in countries that have human health and public 
safety standards and environmental standards that are more like 
the United States and European countries, the better off we are 
going to be both economically and environmentally.
    Ms. Tenney. Excellent. I think that we also look at those 
things. I mean, often we forget that we do actually have rules 
and standards here. So I appreciate your comment on that.
    One other issue I wanted to ask you about is the Biden 
Administration canceled the Keystone XL Pipeline, you know, 
which obviously we know, we have heard about creates jobs for 
Americans, but it has refused to implement the full sanctions 
on the Nord Stream 2 Pipeline to prevent its completion.
    Can you give us a comment about that and what your 
expertise on that is?
    Mr. Loris. Yes. I would largely just say that it is 
frustrating, both from an economy and an environment 
standpoint. This is a pipeline that could efficiently carry up 
to 830,000 barrels of oil per day, the Keystone XL Pipeline 
that is, and even President Obama's State Department, back when 
they were first reviewing the pipeline, said that it would not 
meaningfully contribute to climate change. And the reality is 
that oil is going to come out of the ground regardless of 
whether the pipeline is built or not, and now that oil is going 
to be transported by rail or by truck, which are much more 
inefficient economically and environmentally for North America. 
And so that is problematic.
    And in the meantime, you have
    [inaudible] Nord Stream 2, with dirtier Russian gas that 
has geopolitical implications as well.
    So, hopefully, the Biden Administration holds true to 
calling it the bad deal that President Biden did back in 2016, 
because we need energy infrastructure. We are going to need 
pipelines, natural gas pipelines, transmission lines for 
expanded renewable energy, and we need those projects in a 
timely, efficient manner or else a lot of these targets are 
just going to fall by the wayside because they are going to be 
stuck in zoning problems or lengthy environmental reviews or 
lawsuits by NIMBYist activists, and that does not get more 
efficient technologies built.
    Ms. Tenney. Well, I appreciate the answers. And, actually, 
we would love to have some natural gas in New York that is not 
going to be spilled by truck or by rail, because we do not 
really have a whole lot of rail. But we definitely think that 
the pipelines could be, ironically, the more environmentally 
friendly way to go with our abundant natural gas resources that 
we have in New York, which have actually brought our emissions 
down and New York City has become more reliant on natural gas, 
which is, you know, not the--it is not the emission-free 
standard, but it is certainly better than some of the resources 
we have used in the past.
    But I really appreciate it. I think my time is running out. 
I cannot see it on there, but----
    Mr. Loris. If I can just add, it is not just been natural 
gas too. I mean, in Pennsylvania where I grew up, my parents 
finally
    [inaudible] Their home heating oil with natural gas, and 
there has been frustrations from the Canadians trying to build 
clean transmission lines for their excess hydropower, which is 
an emissions-free source of energy as well.
    And so it is not just natural gas that can help deliver 
more affordable reliable energy up to the northeast, but also 
cleaner, affordable hydro.
    Ms. Tenney. Right. Well, we have Niagara Falls obviously, 
which is a cleaner State, so we are grateful for that and love 
having the emission free there. But, you know, we do need 
energy resources, and it is always a struggle to get those 
resources in as environmentally friendly way as we can, you 
know, from all the way to one end of New York State down 
through Canada all the way down to the Fraser site and down to 
New York City, which requires--where the largest population is. 
But I really appreciate that reference. Thank you so much.
    Mr. Keating. Thank you, Representative.
    The chair now recognizes Representative Schneider for 5 
minutes.
    Mr. Schneider. Thank you, Chairman Keating, and thank you 
for having this very important hearing. To our four witnesses, 
thank you for the work you do and the patience you have shown 
today sharing your perspectives and insights with us. It is 
very much appreciated.
    I do not think there is any question that the impacts of a 
changing climate are an existential threat to everything we 
hold dear in our society and in our planet, and the need to 
take action is clear here. So having this conversation is 
obviously very important.
    You know, my view is that the United States cannot solve 
this problem alone. We have to work with the world. The world 
cannot solve the problem without the United States. So it is 
important that we build this relationship across the ocean, 
across the globe, and work with all nations to try to take 
action. I am reminded of President Kennedy's famous line about 
talking about going to the Moon: We choose to do these things 
not because they are easy, but because they are hard. And there 
is nothing more hard, I think, before us than tackling climate 
change.
    We have, as we have talked about, the need for energy. The 
fact that we are having this conversation on our electronic 
devices, communicating across pipelines of electrons moving, 
but we are able to be together, even though we are in different 
places, requires energy, but it also enables us to do great 
things. And that will be true in the future as well.
    But we talked about the need to address it, the why. It is 
an existential threat. We talked about the when. It has to be 
now. One of the biggest challenges I see are the what and the 
how of how we do this.
    And, Mr. Timmermans, you touched on this. I would like to 
touch a little bit on your thoughts on the European Green Deal. 
In your testimony, you list a number of things that the package 
will reflect--carbon pricing mechanisms, energy efficiency, 
renewable energy, carbon sinks, sustainable mobility and 
transport, and that is not an exhaustive list, but it is a long 
list.
    If we achieved everything that is envisioned in the 
European Green Deal on those items alone, will that solve our 
problem or do we still have much more to do?
    Mr. Timmermans. Oh, we have so much more to do, I am afraid 
to say. But if we implement, if we were to be able to implement 
the legislation we will be proposing in the next couple of 
months, then I think we can reach, as Europeans, our target of 
reducing our emissions with 55 percent until 2030. And that 
would put us on a sustainable path to climate neutrality in 
2050.
    But so much more needs to be done because also we have 
moving targets. New technologies are emerging. We do not know 
today whether they will be successful or not. CCSU might be a 
very successful technology; or it might not be so successful. 
We have other ways of capturing and storing CO2 that might be 
successful or might not be. So we also have to be light on our 
feet in making decisions on where we invest.
    But the thing that is helping us in Europe is to have just 
a clear plan of how we can get from where we are now to where 
we want to be in 2050 and have the intermediate steps in 2030, 
2025, 2040, et cetera. That is helping us plan what we need to 
do. At the same time, nobody would have thought, for instance, 
10 years ago that offshore wind would be such a success as it 
is today for Europe. Nobody was talking about green hydrogen 5 
years ago.
    So, you know, you have to account also for technological 
breakthroughs. I mean, human invention is still a huge driving 
force here that we need to embrace.
    Mr. Schneider. I think it is critical that we rely on that 
invention. Necessity is the mother of invention, and the United 
States can lead on that. We have the greatest R&D, some of the 
best universities and other research institutions, but we do 
have to work with the rest of the world as a part of that.
    And, Dean Kyte, if I can turn to you, as the dean of The 
Fletcher School, understanding the importance of foreign 
relations, relations between nations, what more can we do to 
help both national leaders across the world, but also their 
publics understand that the steps we take are but first steps, 
we can get there if we have to get there, and we can do it in a 
way that is going to create jobs, lift up economies, not hold 
us back, but move us forward?
    Ms. Kyte. So I think it is a great question. I think that 
there is a steadfastness. This is a sprint and a marathon. And 
I think publics want action because they see the climate 
impacts all around them from extreme weather events to changes 
in the price of food and availability of food, et cetera.
    And so I think that the story line of where the new jobs 
are, where the very young population of the planet is going to 
find employment and well-being, being in the technologies and 
in the devices that work in a decarbonized global supply chain. 
And I think that is as true for Kampala as it is for Kansas 
City. This is true for Oaxaca as it is for Osaka.
    And so I think this is what--and people want to see 
countries working together. So if you are in a developing 
country, you want access to markets. You want access to the 
technology. We have amazing technology. Green hydrogen will be 
revolutionary for North America and for the European Union. We 
need it to be revolutionary for the north coast of Africa as 
well.
    And so making sure that these things are available in real 
time will be very important, but I think that the United States 
and Europe are steadfast partners in a sprint and in a marathon 
is something which needs to be, I think, developed in terms of 
actions, not just words. And here really the financing for the 
adaptation and the resilience.
    Climate impacts are having a huge impact right now on the 
people who are the most vulnerable and the least able to chart 
their path forward, and I think there is a sense that there is 
some responsibility brought on by the countries that got us to 
this point. So finding ways to unleash entrepreneurship and 
activity around adaptation and resilience will be very 
important.
    Mr. Schneider. Thank you. My time is expired, but this is a 
big task. We will have many more hearings on this subject, I am 
sure.
    Thank you, Mr. Chairman.
    Mr. Keating. Thank you, Representative.
    And roll calls have been called, but we will be able, I 
think, to negotiate around that.
    We are joined on the committee by Representative Perry. And 
without objection, hearing none, I will recognize 
Representative Perry for 5 minutes.
    Mr. Perry. Thanks, Mr. Chairman. I thank you and the 
ranking member for holding this hearing and offer this time to 
me.
    Secretary Espinosa, I want to read a few quotes from your 
testimony, your Twitter account, and recent public statements. 
I quote: Climate change is an existential crisis that over the 
long term is a threat to humanity's very existence on this 
planet, unquote. And then: Climate change is an emergency that 
could eventually end human life on this planet. Despite every 
study, every report, and the clear warnings from scientists 
throughout the world, many nations are sticking to their 
business-as-usual approach.
    Now, you retweeted U.N. Secretary-General Guterres' 
authoritarian demands to subvert representative democracy 
across the globe when he said, I call on leaders worldwide to 
declare a State of climate emergency in their countries until 
carbon neutrality is reached, unquote.
    You retweeted the UNFCCC's tweet: @U.N. Chief Antonio 
Guterres today called for an end to the war against nature and 
an increased ambition and commitment from governments to tackle 
#climatechange, unquote.
    Ma'am, these are hyperbolic statements not based on science 
and actually do not reflect reality. Instead, they are intended 
to inspire fear of impending doom and instill blind compliance 
with U.N. edicts through implied threats of coercion and for 
those who dissent.
    Unfortunately, this is just the latest example in the 
U.N.'s long history now of doomsday profiteering over the 
climate that precedes the UNFCCC's existence.
    In reality, this kind of rhetoric precedes every U.N. 
climate summit as UNFCCC leaders try to justify its continued 
existence despite decades of failure and attempt to coerce 
politicians into selling out their prosperity, liberty, and 
freedom of their constituents in return for a system of 
socialism and oppression run by the U.N. central planners.
    This historical context creates a credibility crisis for 
the UNFCCC, one that cannot nearly be overcome by stating the 
science is clear. That is not enough.
    Given this credibility crisis, I am actually disheartened 
by the fact that you are now demanding we impose significant 
economic harm on our constituents and send hundreds of billions 
of their hard-earned taxpayer money overseas without 
acknowledging, what I consider to be the elephant in the room, 
and that is that China's massive build-out of coal power plants 
and intent to continue this practice for at least the next 5 
years is somehow in compliance with their NDC that allows for a 
30 percent absolute carbon emission increase.
    You know that if the U.S. were to reach net-zero today, 
China's emissions would completely replace them in 3 weeks. 
That means that all the economic harm imposed on our 
constituents would result in no, in zero climate benefits even 
under the most alarmists assumptions.
    I got to say that your silence on this matter is indicative 
of a larger concern about the Communist Chinese Party's 
influence over the U.N. and the U.N.'s hostility to America's 
interests.
    Ma'am, is it the UNFCCC's position that the United States 
should sacrifice its economy to pick up the slack of the rogue 
genocidal CCP regime?
    Ms. Espinosa. Representative Perry, of course, I have taken 
note of your statement and of your opinions.
    Regarding your question, it is the role of the UNFCCC as 
the treaty body created by the first to serve the convention 
and now to serve the Paris Agreement to concentrate on helping 
countries in abiding to the commitments that they have made 
under those international instruments.
    Mr. Perry. I understand that, ma'am. I have got 30 seconds. 
But you understand that what you are talking about is the 
United States sacrificing its economy while the Chinese 
Communist Party just continues to emit 30 percent absolute 
carbon emission increase over the same period of time.
    Let me just say this. The U.S. withdraw from the UNFCCC is, 
in my opinion, long overdue. It is not about science. It is 
about politics. It is about socialism. I intend to introduce 
legislation to do so this week.
    I appreciate everybody's time.
    Mr. Chairman, I yield back the balance.
    Mr. Keating. Thank you, Representative.
    And I want to thank our witnesses, if I can. Take a few 
moments for some closing remarks of my own. We have an 
extraordinary witness panel here today, among the world 
leaders, people that would be making great decision, shaping 
great decisions from so many perspectives.
    You know, Mr. Loris from the private side, which is, the 
private side will have a major role going forward.
    Dean Kyte, your points on emerging nations and the 
importance of financial markets and other countries moving 
together and the opportunities that that presents beyond just 
the climate issues were really quite appreciated.
    And Executive Vice President Timmermans, you know, just 
coming from your own background, representing a coal area where 
your family was involved, the farming area where you are 
involved, and recognizing the economic opportunities that exist 
and the jobs that exist and the future jobs moving our 
countries forward, truly appreciated.
    And, clearly, I just want to thank Executive Secretary 
Espinosa for your remarks, your work. I think I would take a 
little different approach, not saying they are hyperbole, but 
reality. That is what we are dealing with here, reality, and 
urgency. And I am so pleased to represent in this committee, in 
the Foreign Affairs Committee, that our witnesses took the time 
to be part of this very important discussion.
    I do not think there will be a more important discussion 
than we have all year, and to have the caliber of witnesses 
that we have is truly appreciated. And I hope we can move 
forward and work together in the future with any suggestions 
you might have as to how we could better address this 
existential issue that is in front of us.
    It is also an important week. I think it is very likely 
there will be a major announcement coming from the White House 
this week, from the President this week on this matter. So I do 
believe it is not only important in terms of the global clock, 
but it is very relevant in terms of the decisionmaking and 
where we are moving in the United States as well.
    So I will just deal with some housekeeping, other than my 
profound thank you for investing the time here with us and the 
time you spend when you are not here with us dealing with these 
issues. And I hope we do as well in this effort as the Boston 
Red Sox are doing in the American League right now.
    So, if I could, I will just read some closing housekeeping 
things I have to do.
    Members of the committee will have 5 days to submit 
statements, extraneous materials, and questions for the record 
subject to the length and limitation of the rules.
    Again, I want to thank extraordinary panel for their time 
and their knowledge.
    With that, I will declare the hearing adjourned.
    [Whereupon, at 4:05 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                 


            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             
            
                                 <all>
</pre></body></html>
